-fipP£A([)/y fir

First District Court of Appeal
State of Florida
No. 1D19-4566

Jennifer Van Bergen a/k/a
Gwendolyn Stone,
Appellant,
v.
Scott Koppel,
Appellee.

On appeal from the Circuit Court for Alachua County.
Monica J. Brasington, Judge.
February 9, 2021

Per Curiam.
Affirmed.
B.L. Thomas, WINOKUR, and TANENBAUM, JJ., concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Jennifer Van Bergen a/k/a Gwendolyn Stone, pro se, Appellant.
Jami M. Kimbrell, Joseph E. Brooks, and Olivia M. Brooks of
Brooks Law, Tallahassee, for Appellee.

2

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
March 18, 2021
CASE NO.: 1D19-4566
L.T. No.: 2017-CA-3433
Jennifer Van Bergen a/k/a
Gwendolyn Stone
Appellant / Petitioner(s),

v.

Scott Koppel
Appellee / Respondent(s)

BY ORDER OF THE COURT:
Appellant’s amended motion docketed February 23, 2021, for written opinion and
certification is denied.
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Jami M. Kimbrell
Olivia Brooks
th

KRISTINA SAMUELS, CLERK

Joseph E. Brooks
Jennifer Van Bergen

Affront, c
Filing# 100363851 E-Filed 12/16/2019 01:29:50 PM

IN THE CIRCUIT COURT FOR
THE EIGHTH JUDICIAL CIRCUIT,
IN AND FOR ALACHUA COUNTY, FLORIDA
Jennifer Van Bergen,
Plaintiff,
v.
Scott Koppel,
Defendant.

Case No.: 01-2017-CA-3433

ORDER DENYING MOTIONS FOR RELIEF FROM JUDGMENT
PURSUANT TO RULE 1.540
This matter comes before the court on a mandate issued by the First District Court of Appeal for
the State of Florida on September 20, 2019. The mandate required this court to hold an evidentiary
hearing on the colorable claim plaintiff alleged in her motions for relief from judgment pursuant to
Florida Rule of Civil Procedure 1.540(b) regarding whether she timely received the Order Granting
Motion for Summary Judgment and whether she had an opportunity to seek a timely appeal.
A hearing was held on this issue November 19, 2019 at which time the plaintiff appeared as did
counsel for the defendant.1 Upon consideration of the evidence, argument of the parties and a review of
the court file, the court finds as follows:
1. Defendant filed a motion for summary judgment and a hearing was held on the motion on
April 23, 2018.
2. The Order Granting Motion for Summary Judgment was rendered on May 1, 2018 (by a prior
judge).

1 The Court notes that at the scheduled hearing, the Court authorized the pro se Plaintiff additional time (through
November 19, 2019 at 5:00pm) to file supplemental case law, at her request. The Court did not request, nor
authorize, the filing of additional evidence subsequent to the hearing and has not considered any subsequently filed
documents, such as Affidavits, etc.

3. The court's judicial assistant served a copy of the order to the plaintiff through the efiling
portal.
4. Plaintiff testified that she heard the judge grant Defendant’s motion on summary judgment on
the date of the hearing. Plaintiff further testified that she did not receive a copy of the order that was
served to her through the efiling portal.
5. Subsequently, Plaintiff had a friend check the docket for her and the order was discovered.
Plaintiff’s testimony on the timing of the discovery of the existence of the order was vague.
6. Plaintiff testified that it took her “a few days” to draft her motion for reconsideration of the
order granting summary judgment, which she filed on May 15, 2018.
7. On the evidence presented, the court is unable to determine exactly how the error regarding
the service of the order through the efiling portal occurred and whether or not the failure was due to user
error (Plaintiff’s failure to adequately complete her email registration through the portal) or due to some
technical error with the Court’s service system.
8. However, it is clear to the Court that Plaintiff had actual notice of the order a few days before
May 15, 2018. The date by which plaintiff was required to file a timely notice of appeal on the order
granting summary judgment was May 31, 2018. Thus, Plaintiff had more than sixteen days to file a
notice of appeal.
9. "A party can seek relief under rule 1.540(b) when he or she does not receive a copy of an
order entered by the court until after the time for filing an appeal has expired." Waters v. Childers, 198
So.3d 1007,1008 (Fla. 1st DCA 2016); see also Leichester Trust v. Federal Nat. Mortg. Ass'n, 184
So.3d 1187,1190 (Fla. 2d DCA 2015) (stating order to vacate should be granted where "inability to file
a timely notice of appeal was due to the actions or inactions of the trial court[.]").

10. The situations described in the above cases do not exist in this case. Here, the court's action
did not prevent Plaintiff from filing a timely notice of appeal by May 31, 2018. Plaintiff had the ability
to file pleadings or notices, shown by the fact that between the time she learned of the order and the time
to file an appeal, she filed a lengthy (27 page) motion for reconsideration. Plaintiff did not provide any
testimony regarding how the failure to learn of the order until a few days before May 15, 2018 prevented
her from filing a notice of appeal by May 31, 2018. See Larkin v. Buranosky, 25 So.3d 685 (Fla. 4th
DCA 2010) (motion to vacate pursuant to rule 1.540(b) correctly denied where the underlying
circumstances included the fact that the party had at least two weeks left to file a notice of appeal after
learning of the existence of the final judgment). Therefore, plaintiff has not established that the order of
summary judgment should be vacated under rule 1.540(b) and the motion should be denied. It is
therefore,
ORDERED AND ADJUDGED
Plaintiff's Motions for Relief from Judgment are Denied.

DONE AND ORDERED in Chambers at the Alachua County Family & Civil Justice Center,
Gainesville, Florida on Monday, December 16, 2019.

ftlataa#iialmf«.
Monica Brasington, Circuit Judge
(/
01-2017-CA-003433 12/16/2019 12:27:24 PM

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that copies have been furnished by U.S. Mail or via filing with the
Florida Courts E-Filing Portal on Monday, December 16, 2019.
JENNIFER VAN BERGEN

621 SE 73RD TERR
GAINESVILLE, FL 32641
JAMI KIMBRELL, ESQ
jmk@brookslawyers.net
tlc@brookslawyers.net
arj@brookslawyers.net
Jennifer Van Bergen
j ennifer.vanbergen@gmail.com
Joseph E. Brooks
jeb@brookslawyers.net
arj @brookslawyers.net
tlc@brookslawyers.net

u

ft

Ruby Dunaway, Judical Assistant
01-2017-CA-003433 12/16/2019 01:28:56 PM

fcppiNm T>
Filing # 71463289 E-Filed 05/01/2018 10:27:14 AM

IN THE CIRCUIT COURT OF THE EIGHTH JUDICIAL CIRCUIT IN AND FOR
ALACHUA COUNTY FLORIDA
JENNIFER VAN BERGEN,
Plaintiff,
v.
SCOTT KOPPEL, D.P.M.

Case No.: 2017-CA-3433

Defendant.
ORDER GRANTING MOTION FOR FINAL SUMMARY JUDGMENT
THIS CAUSE having come before the Court for consideration on the Defendant’s Motion
for Final Summary Judgment and this Court being otherwise fully advised in the premises, it is
hereby ORDERED AND ADJUDGED:
1. Final Summary Judgment is GRANTED as to Defendant, SCOTT KOPPEL, DPM.
2. Plaintiff, Jennifer Van Bergen, shall take nothing by this action, and shall go hence
without day.
DONE AND ORDERED this Tuesday, May 1, 2018, Alachua County, Florida.
01-2017-CA-003433 05/01/2018 09:40:22 AM

Donna M. Keim, Circuit Judge
01-2017-CA-003433 05/01/2018 09:40:22 AM

Copies to the following parties on the Tuesday, May 1, 2018 by E-Portal:
Joseph E. Brooks
Jami M. Kimbrell
Brooks Law
jeb@brookslawyers.net: tlc@brookslawyers.net:
jmk@hmoks1awyprs.net

Jennifer Van Bergen
jennifer.vanbergen@gmail.com

mtmm
x

O
Theresa Hall, Judicial Assistant
01-2017-CA-003433 05/01/2018 10:26:21 AM

1

"2017 CA 003433" 71463289 Filed at Alachua County Clerk 05/01/2018 10:27:18 AM EDT

kP?£NOl X £
APPENDIX £

Constitutional And Statutory Provisions Involved
United States Constitution
5th Amendment
No person shall be held to answer for a capital, or otherwise infamous crime, unless on
a presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor
shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation.
14th Amendment
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Florida Statutes
Florida Stat. § 766.102 (3)(b)
(b) The existence of a medical injury does not create any inference or presumption of
negligence against a health care provider, and the claimant must maintain the burden of
proving that an injury was proximatelv caused by a breach of the prevailing_______
professional standard of care bv the health care provider. Any records, policies, or
testimony of an insurer’s reimbursement policies or reimbursement determination
regarding the care provided to the plaintiff is not admissible as evidence in any medical
negligence action. However, the discovery of the presence of a foreign body, such as a
spnngp. clamp, forceps, surgical needle, or other paraphernalia commonly used in
surgical, examination, or diagnostic procedures, shall be prima facie evidence of_____
negligence on the part of the health care provider.
Florida Stat.§ 766.102 (5) A person may not give expert testimony concerning the
prevailing professional standard of care unless the person is a health care provider who
holds an active and valid license and conducts a complete review of the pertinent
medical records and meets the following criteria:
(a) If the health care provider against whom or on whose behalf the testimony is
offered is a specialist, the expert witness must:

1. Specialize in the same specialty as the health care provider against whom or on
whose behalf the testimony is offered; and
2. Have devoted professional time during the 3 years immediately preceding the date
of the occurrence that is the basis for the action to:
a. The active clinical practice of, or consulting with respect to, the same specialty;
b. Instruction of students in an accredited health professional school or accredited
residency or clinical research program in the same specialty; or
c. A clinical research program that is affiliated with an accredited health professional
school or accredited residency or clinical research program in the same specialty.
(b) If the health care provider against whom or on whose behalf the testimony is
offered is a general practitioner, the expert witness must have devoted professional time
during the 5 years immediately preceding the date of the occurrence that is the basis for
the action to:
1. The active clinical practice or consultation as a general practitioner;
2. The instruction of students in an accredited health professional school or accredited
residency program in the general practice of medicine; or
3. A clinical research program that is affiliated with an accredited medical school or
teaching hospital and that is in the general practice of medicine.
(c) If the health care provider against whom or on whose behalf the testimony is
offered is a health care provider other than a specialist or a general practitioner, the
expert witness must have devoted professional time during the 3 years immediately
preceding the date of the occurrence that is the basis for the action to:
1. The active clinical practice of, or consulting with respect to, the same or similar
health profession as the health care provider against whom or on whose behalf the
testimony is offered;
2. The instruction of students in an accredited health professional school or accredited
residency program in the same or similar health profession in which the health care
provider against whom or on whose behalf the testimony is offered; or
3. A clinical research program that is affiliated with an accredited medical school or
teaching hospital and that is in the same or similar health profession as the health care
provider against whom or on whose behalf the testimony is offered.
Florida Stat. § 766.102 (9)(b)(2)(10) -- In any action alleging medical negligence, an
expert witness may not testify on a contingency fee basis.
Florida Stat.§766.106(2)
(2) PRESUIT NOTICE.—
(a) After completion of presuit investigation pursuant to s. 766.203(21 and prior to
filing a complaint fnr medical negligence, a claimant shall notify each prospective
defendant bv certified mail, reftim receipt requested, of intent to initiate litigation for

medical nepligencp. Notice to each prospective defendant must include, if available, a
list of all known health care providers seen by the claimant for the injuries complained
of subsequent to the alleged act of negligence, all known health care providers during
the 2-year period prior to the alleged act of negligence who treated or evaluated the
claimant, copies of all of the medical records relied upon by the expert in signing the
affidavit, and the executed authorization form provided in s. 766.1065,______
Florida Stat.§766.201 Legislative findings and intent—
(1) The Legislature makes the following findings:
(a) Medical malpractice Lability insurance premiums have increased dramatically in
recent years, resulting in increased medical care costs for most patients and functional
unavailability of malpractice insurance for some physicians.
(b) The primary cause of increased medical malpractice liability insurance premiums
has been the substantial increase in loss payments to claimants caused by tremendous
increases in the amounts of paid claims.
(c) The average cost of a medical negligence claim has escalated in the past decade to
the point where it has become imperative to control such cost in the interests of the
public need for quality medical services.
(d) The high cost of medical negligence claims in the state can be substantially_____
alleviated hv requiring early determination of the merit of claims, bv providing for
early arbitration of claims, thereby reducing delay and attorney’s fees, and bv imposing
reasonable limitations on damages, while preserving the right of either party to have its
case heard bv a jury.
(e) The recovery of 100 percent of economic losses constitutes overcompensation
because such recovery fails to recognize that such awards are not subject to taxes on
economic damages.
(2) It is the intent of the Legislature to provide a plan for prompt resolution of
medical negligence claims. Such plan shall consist of two separate components, presuit
investigation and arbitration. Presuit investigation shall be mandatory and shall apply to
all medical negligence claims and defenses. Arbitration shall be voluntary and shall be
available except as specified.
(a) Presuit investigation shall include:
1. Verifiable requirements that reasonable investigation precede both malpractice
claims and defenses in order to eliminate frivolous claims and defenses.
2. Medical corroboration procedures.
(b) Arbitration shall provide:
1. Substantial incentives for both claimants and defendants to submit their cases to
binding arbitration, thus reducing attorney’s fees, litigation costs, and delay.
2. A conditional limitation on noneconomic damages where the defendant concedes
willingness to pay economic damages and reasonable attorney’s fees.

3. Limitations on the noneconomic damages components of large awards to provide
increased predictability of outcome of the claims resolution process for insurer
anticipated losses planning, and to facilitate early resolution of medical negligence
claims.
Florida Stat.§766.202(6) “Medical expert” means a person duly and regularly
engaged in the practice of his or her profession who holds a health care professional
degree from a university or college and who meets the requirements of an expert
witness as set forth in s. 766.102.
Florida Stat§766.203 Presuit investigation of medical negligence claims and
defenses by prospective parties.—
(1) APPLICATION OF PRESUIT INVESTIGATION.—Presuit investigation of
medical negligence claims and defenses pursuant to this section and ss.______
766.204-760 706 shall apply to all medical negligence claims and defenses. This shall
include:
(a) Rights of action under s. 768.19 and defenses thereto.
(b) Rights of action involving the state or its agencies or subdivisions, or the officers,
employees, or agents thereof, pursuant to s. 768.28 and defenses thereto.
(2) PRESUIT INVESTIGATION BY CLAIMANT.—Prior to issuing notification of
intent to initiate medical negligence litigation pursuant to s. 766.106. the claimant shall
conduct an investigation to ascertain that there are reasonable grounds to believe that:
(a) Any named defendant in the litigation was negligent in the care or treatment of the
claimant; and
(b) Such negligence resulted in injury to the claimant.
Corroboration of reasonable grounds to initiate medical negligence litigation shall be
provided bv thp claimant's submission of a verified written medical expert opinion_
from a medical expert as defined in s. 766.202(61, at the time the notice of intent to—
initiate litigation is mailed, which statement shall corroborate reasonable grounds to _
support the claim of medical negligence.
Florida Stat.§766.204 Availability of medical records for presuit investigation of
medical negligence claims and defenses; penalty.—
(1) Copies of anv medical record relevant to any litigation of a medical negligence
rlaim or defense shall be provided to a claimant or a defendant or to the attorney____
thereof, at a reasonable charge within 10 business days of a request for copies, except
that an independent special hospital district with taxing authority which owns two or

more hospitals shall have 20 days. It shall not be grounds to refuse copies of such
medical records that they are not yet completed or that a medical bill is still owing.
(2) Failure to provide copies of such medical records, or failure to make the charge
for copies a reasonable charge, shall constitute evidence of failure of that party to_____
comply with good faith discovery requirements and shall waive the requirement of
written medical corroboration bv the requesting party._____
(3) A hospital shall not be held liable for any civil damages as a result of complying
with this section.
Florida Stat.§766.206 Presuit investigation of medical negligence claims and
defenses by court.—
(1) After the completion of presuit investigation by the parties pursuant to s. 766.203
and any discovery pursuant to s. 766.106. anv party may file a motion in the circuit
court requesting the court to determine whether the opposing party’s claim or denial
rests on a reasonable basis.
(2) If the court finds that the notice of intent to initiate litigation mailed bv the______
claimant does not comply with the reasonable investigation requirements of ss.__
766.201-766.212. including a review of the claim and a verified written medical expert
opinion by an expert witness as defined in s. 766.202. or that the authorization
accompanying the notice of intent required under s. 766.1065 is not completed in good
faith by the claimant, the court shall dismiss the claim, and the person who mailed such
notice of intent, whether the claimant or the claimant’s attorney, is personally liable for
all attorney’s fees and costs incurred during the investigation and evaluation of the
claim, including the reasonable attorney’s fees and costs of the defendant or the
defendant’s insurer.
(3) If the court finds that the response mailed bv a defendant rejecting the claim is not
in compliance with the reasonable investigation requirements of ss. 766.201-766.212.
including a review of the claim and a verified written medical expert opinion bv an___
expert witness as defined in s. 766.202. the court shall strike the defendant’s pleading.
The person who mailed such response, whether the defendant, the defendant’s insurer,
or the defendant’s attorney, shall be personally liable for all attorney’s fees and costs
incurred during the investigation and evaluation of the claim, including the reasonable
attorney’s fees and costs of the claimant.
(4) If the court finds that an attorney for the claimant mailed notice of intent to
initiate litigation without reasonable investigation, or filed a medical negligence claim
without first mailing such notice of intent which complies with the reasonable
investigation requirements, or if the court finds that an attorney for a defendant mailed
a response rejecting the claim without reasonable investigation, the court shall submit
its finding in the matter to The Florida Bar for disciplinary review of the attorney. Any
attorney so reported three or more times within a 5-year period shall be reported to a

circuit grievance committee acting under the jurisdiction of the Supreme Court. If such
committee finds probable cause to believe that an attorney has violated this section,
such committee shall forward to the Supreme Court a copy of its finding.
(5)(a) If the court finds that the corroborating written medical expert opinion attached
to any notice of claim or intent or to any response rejecting a claim lacked reasonable
investigation or that the medical expert submitting the opinion did not meet the expert
witness qualifications as set forth in s. 766.10215). the court shall report the medical
expert issuing such corroborating opinion to the Division of Medical Quality Assurance
or its designee. If such medical expert is not a resident of the state, the division shall
forward such report to the disciplining authority of that medical expert.
(b) The court shall refuse to consider the testimony or opinion attached to any notice
of intent or to any response rejecting a claim of an expert who has been disqualified
three times pursuant to this section.

